DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General



      A Review of Immigration and 

     Customs Enforcement Discipline 

              Procedures





    Office of Inspections and Special Reviews
OIG-06-57                              August 2006
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                  August 18, 2006


                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, effectiveness, and efficiency within the department.

This report identifies measures that can be taken by Immigration and Customs Enforcement (ICE) to
improve its employee disciplinary system and the efforts undertaken by ICE to establish a single,
integrated disciplinary process that is uniform in its assessment of discipline for verified offenses of
its employees. It is based on interviews with employees and officials of relevant agencies and
institutions, statistical analyses, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

Table of Contents 



      Executive Summary ................................................................................................................1 


      Background .............................................................................................................................3 


      Overview of ICE’s Disciplinary System.................................................................................4 

           The Allegation Intake and Classification Process .........................................................4 

           Investigative Responsibility for Allegations of Misconduct .........................................6 

           Adjudicating Reports of Investigation ...........................................................................6 


      Results of Review ...................................................................................................................7 

           Improvements Are Needed in ICE’s Disciplinary Process............................................8 

                 Effective Tracking and Processing of Cases Is Needed........................................8 

                 Completed Investigations Need to be Adjudicated In a Timely Manner............10 

                 Penalties Should be Uniformly Applied .............................................................13 

           Policies and Management Oversight Are Needed .......................................................15 

                 Improved Policies Are Needed to Enhance Coordination ..................................15 

                 Current Decision Making Process Requires More Management Oversight.......16 

           Coordination Issues Are Affecting Investigation Information Sharing.......................19 

                 The Investigative Reporting Process and Requirements Need to be Clarified...19 

                 Improvements are Needed to Track the Distribution of DHS OIG 

                   Investigations ..................................................................................................20 


      Management Comments and OIG Analysis .........................................................................21 


Appendices
  Appendix A:        Purpose, Scope, and Methodology .......................................................................26 

  Appendix B:        Management Response to Draft Report ...............................................................27 

  Appendix C:        ICE Organization Chart........................................................................................32 

  Appendix D:        DHS Management Directive 0810.1 Appendix A................................................33 

  Appendix E:        DHS and BTS Memorandum of Understanding ..................................................35 

  Appendix F:        Total Reports of Investigation Statistics ..............................................................37 

  Appendix G:        DHS Inspector General Letter Concerning Delinquent Replies ..........................38

  Appendix H:        ICE’s Assistant Secretary for Immigration and Customs Enforcement Letter ....39 

  Appendix I:        Major Contributors to This Report.......................................................................43 

  Appendix J:        Report Distribution...............................................................................................44 





                             A Review of Immigration and Customs Disciplinary Procedures
Table of Contents 


Abbreviations
  AIG/I           Assistant Inspector General for Investigations
  BTS             Border and Transportation Security
  CBP             Customs and Border Protection
  DHS             Department of Homeland Security
  ELR             Employee and Labor Relations
  FAMS            Federal Air Marshal Service
  ICE             Immigration and Customs Enforcement
  INS             Immigration and Naturalization Service
  JIC             Joint Intake Center
  JICMS           Joint Integrity Case Management System
  MOU             Memorandum of Understanding
  MSPB            Merit Systems Protection Board
  OIG             Office of Inspector General
  OPLA            Office of the Principal Legal Advisor
  OPR             Office of Professional Responsibility
  ROI             Reports of Investigation
  USCS            United States Customs Service




                A Review of Immigration and Customs Disciplinary Procedures
OIG 

Department of Homeland Security
Office of Inspector General
Executive Summary
                          On a cyclical basis, our Office of Investigations conducts quality assurance
                          reviews of the internal affairs units in component agencies of the Department
                          of Homeland Security (DHS). These examinations address the handling of
                          allegations, the quality and timeliness of investigations, management of the
                          caseload, and reporting of the results.1 A review performed on the internal
                          affairs unit of Immigration and Customs Enforcement (ICE) gave rise to
                          concerns that completed internal affairs cases, in which the misconduct
                          allegations had been substantiated, were not receiving timely or effective
                          attention with a probable erosion of good discipline.

                          In response to those concerns, we reviewed ICE’s disciplinary system to
                          determine how, once an allegation has been investigated and found to have
                          merit, ICE imposes and enforces discipline on the employee. Specifically, we
                          reviewed the timeliness and consistency of disciplinary adjudications, and
                          whether ICE’s disciplinary system was being administered in a uniform
                          manner. We focused on the most serious cases of employee misconduct,
                          commonly described in Reports of Investigation (ROI). We did not assess the
                          reasonableness of the sanctions eventually imposed on ICE employees who
                          engage in misconduct.

                          To determine ICE's ability to track, monitor, and process disciplinary cases
                          within its system, we reviewed the status of 246 ROIs from a universe of 268
                          ROIs completed between January 2003 and August 2005. The ICE Office of
                          Professional Responsibility (OPR) case management system does not track
                          information on the status of disciplinary cases after the investigation of the
                          allegation is complete. Once OPR has turned the investigated case over to ICE
                          managers for assessment of an appropriate sanction, those managers may, but
                          are not required to, ask the Employee and Labor Relations (ELR) servicing
                          offices to assist. ELR does not have an effective system for tracking ICE
                          disciplinary cases, which impacts its ability to maintain case file data. For
                          example, because information in ELR case management logs is incomplete or
                          inaccurate, we were unable to track the status of 22 ROIs. Furthermore, cases
                          are not being subsequently adjudicated in a prompt manner when we or OPR

1
  We conduct investigations of serious misconduct and criminal behavior committed by DHS employees, but, pursuant
to a Memoranda of Understanding between the OIG and the Department’s organizational elements with internal affairs
units, we assign to cognizant internal affairs units responsibility for investigating lesser matters of misconduct. The
quality assurance review discussed here is one way by which we monitor the performance of the internal affairs units and
the cases they investigate.
                       A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                        Page 1

OIG 

Department of Homeland Security
Office of Inspector General
                 substantiates serious misconduct. Of the 246 ROIs, there are 147 (60 %) with
                 components for adjudication where no identifiable action has been taken, and
                 only 71 ROIs (29 %) have been processed for adjudication. An additional 28
                 ROIs (11 %) had no action taken by the component because the alleged
                 misconduct was not substantiated.

                 Currently, ELR uses five separate Tables of Offenses and Penalties to guide
                 management in determining appropriate discipline for ICE employees. Four
                 tables are from former agencies that merged within Border and Transportation
                 Security (BTS) and one is an interim ICE Table of Offenses and Penalties for
                 its non-bargaining component employees. As a result, the current disciplinary
                 process does not provide uniform treatment for ICE employees. We highlight
                 several cases where timeliness, consistency of disciplinary procedures, or the
                 degree of discipline raises serious concerns. These cases underscore ICE’s
                 need for more formal policy on the roles and responsibilities of those involved
                 in the disciplinary process and better management oversight of the decision-
                 making process. ICE and DHS OIG also need to improve their coordination
                 and communication. ICE must establish a reliable process to respond to
                 information requests on the disciplinary status of ROIs, and clarification is
                 needed on what information ICE should provide in its required monthly
                 reports to our Office of Investigations.

                 To improve ICE’s ability to establish a single, integrated disciplinary process
                 that is timely and uniform, we are making 11 recommendations. Essentially,
                 we are recommending that:

                     • 	 ELR implement a centralized case management system, standardize
                         the recording and collecting of information, provide more training to
                         ELR employees, ensure active disciplinary case file information is
                         transferred to the new case management system, establish performance
                         measures for the timely adjudication of cases, and implement policies
                         to process existing cases during the transition to the new system;
                     • 	 OPR provide notification to ELR when ROIs are completed, revise its
                         procedures to ensure effective reporting on the disciplinary status of
                         ROIs, and establish a process to track receipt and distribution of DHS
                         OIG ROIs; and
                     • 	 ICE implement a single Table of Offenses and Penalties, and
                         coordinate components' adjudication of disciplinary cases with ELR.



              A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                              Page 2

Background
                           The Homeland Security Act of 2002 established the Border and
                           Transportation Security Directorate as the primary customs and immigration
                           enforcement entity in DHS. Within BTS, criminal investigators from the
                           former United States Customs Service (USCS) and the former Immigration
                           and Naturalization Service (INS) were combined in ICE. The border
                           inspectors of USCS and INS were combined in the Bureau of Customs and
                           Border Protection (CBP). As a result of a DHS reorganization that began in
                           July 2005, BTS has ceased to exist and CBP and ICE operate independently.

                           ICE’s mission is to prevent acts of terrorism by targeting the people, money,
                           and materials that support terrorist and criminal activities. The largest
                           investigative arm of DHS, ICE is responsible for identifying and shutting
                           down vulnerabilities in the nation’s border, economic, transportation, and
                           infrastructure security. ICE targets the people, money, and materials that
                           support criminal activities. At the time we began our review, ICE had five
                           operational components: (1) the Office of Detention and Removal, (2) the
                           Federal Protective Service, (3) the Office of Intelligence, (4) the Office of
                           Investigations, and (5) the Federal Air Marshal Service (FAMS).2 The July
                           2005 reorganization resulted in the transfer of FAMS from ICE to the
                           Transportation Security Administration later that year. ICE currently has
                           approximately 15,000 employees, of which approximately 6,000 are criminal
                           investigators, and an operating budget of $3.9 billion in FY 2006.

                           ICE employees must meet a high standard of ethical conduct that serves and
                           protects the interest of the public and furthers ICE’s organizational goals. For
                           this to occur, ICE needs an effective disciplinary system based upon well-
                           defined policies and procedures, a system that assists its employees to
                           understand expected behavior, and that deals fairly and objectively with
                           employees accused of misconduct.

                           According to Appendix A of DHS Management Directive 810.1, (see
                           Appendix D), serious allegations of unprofessional conduct by ICE employees
                           are referred to OIG for a decision whether OIG will investigate or decline in
                           favor of an ICE investigation. A Memorandum of Understanding (MOU) that
                           defines which cases will be referred, and what procedures OIG and ICE will
                           follow, was executed in March 2003 (see Appendix E). The MOU calls for
                           timely reports back to the AIG/I by ICE. We began this review because ICE
                           could not provide the disciplinary status on OIG conducted ROIs, which gave

2
    See Appendix C, ICE Organization Chart.
                        A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                        Page 3

                           rise to concerns that allegations of employee misconduct were not receiving
                           timely or effective adjudication.

Overview of ICE’s Disciplinary System
                           Title 5, United States Code, Chapter 75, provides the legal framework for
                           federal agencies to address employee misconduct through discipline and
                           adverse actions. Such actions range from oral and written admonishments, to
                           suspensions or demotions, and ultimately to removals. According to Chapter
                           75, employees may be disciplined for such cause as will promote the
                           efficiency of the service. ICE has the authority to take disciplinary action
                           when an employee’s misconduct or unacceptable performance interferes with
                           the organization’s ability to carry out its mission. However, ICE currently
                           does not have cohesive policies and processes in place to ensure the timely,
                           uniform treatment of complaints against its employees.

                           ICE’s disciplinary process involves two stages, investigation and
                           adjudication.3 Once an investigation determines whether or not misconduct
                           occurred, the case is transmitted to the employee's operating entity for
                           disposition. In the adjudicative stage, disciplinary action is proposed and
                           imposed. The ELR division is within ICE’s Office of Resource Management.
                           ELR assists with the adjudicative stage, when invited by the appropriate ICE
                           component, but can only assist when the entity managers make ELR aware of
                           the case. ELR has three locations, headquarters in Washington, DC, and field
                           offices in Dallas, Texas, and Laguna Niguel, California.

                           The Allegation Intake and Classification Process

                           Allegations of misconduct are received by ICE OPR from telephone calls to a
                           24-hour toll free hotline, faxes, reports from other government employees, the
                           public, anonymous sources, or referrals from the OIG and OPR field offices.
                           Regardless of the source, allegations are forwarded to ICE’s Joint Intake
                           Center (JIC) for processing and assignment. The JIC, which is located at CBP
                           headquarters, is funded by CBP and operated by ICE OPR. The JIC is staffed
                           with personnel from CBP and ICE who are responsible for receiving,
                           classifying, and routing allegations of CBP and ICE employee misconduct.
                           After an allegation is received at the JIC, an Intake Control Specialist catalogs
                           the allegation in a two-step process described in OPR’s Investigative
                           Guidebook as categorizing and classifying.

3
 Many of the employees with whom we spoke used the word discipline to refer only to the adjudicative stage –
discipline in the sense of punishment. We use it to refer to the entire process that disposes of allegations of professional
misconduct – the investigation and the subsequent sanction, if any.
                        A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                           Page 4

   First, the Intake Control Specialist categorizes the allegation from a list of
   twenty named offenses covering a range of criminal, non-criminal, and
   administrative matters. Categories of offense include bribery, smuggling,
   falsification, sexual harassment, mismanagement, and lost credentials. After
   the allegation is categorized, it is then assigned to one of six investigative
   classes that determine how the allegation will be handled. These classes are:

       Class I - Criminal Misconduct
       Class II - Serious Non-Criminal Misconduct
       Class III – Administrative Misconduct
       Class IV – Informational Purpose Only
       Class V – Administrative Investigations or Non- Investigations
       Class VI – Computer Generated Files to Capture Non-Operational Duties

   Class I and II allegations are considered the most serious in nature.
   Allegations of bribery or employee involvement in drug smuggling would be
   classified as allegations of criminal misconduct. Allegations of sexual
   harassment or misuse of a government vehicle would be classified as serious
   non-criminal misconduct. Class III allegations generally are referred to ICE
   management for inquiry or action. These types of allegations would include
   unprofessional behavior or some specific conduct or action that would be
   considered inconsistent with ICE or government policies and standards. Class
   IV designations do not require any type of investigative action; the
   information concerning this class is indexed and may be referred to
   appropriate ICE officials for informational purposes and are generally closed
   without action, but a permanent record remains for future reference. For
   example, information regarding lost credentials would be a class IV
   allegation. Class V designations are used to electronically monitor a program
   or project, track an initiative, or to document integrity tests with no named
   subjects. Finally, the Class VI designation is used to capture non-operational
   duties for ICE employees such as leave, collateral duties, or to document
   special projects.

   After the allegation is analyzed, the respective ICE or CBP JIC supervisor
   reviews the case file to ensure it contains all relevant information, and is
   properly categorized and classified, before it is acted upon by DHS OIG or the
   appropriate ICE component. There are two JIC supervisors, one for CBP and
   one for ICE, who review their corresponding agency cases before they are
   assigned for processing. The CBP supervisor at the JIC is a labor and
   employee relations specialist; the ICE supervisor is a Senior Special Agent.


A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 5

                         Investigative Responsibility for Allegations of Misconduct

                         As described in DHS Management Directive 0810.1, OPR does not
                         investigate all allegations of criminal or serious non-criminal employee
                         misconduct. OPR is required to report all allegations of serious employee
                         misconduct to DHS OIG, which either accepts or declines investigative
                         responsibility for the case reported by OPR. If DHS OIG declines to
                         investigate an allegation, the case file is returned to OPR for disposition. OPR
                         then conducts its own investigation on any case declined by DHS OIG.
                         Allegations that are investigated by either DHS OIG or OPR result in case
                         files that are referred to as ROIs.

                         Completed DHS OIG ROIs are forwarded to ICE OPR headquarters for
                         review and appropriate disposition. The ROIs are first reviewed for
                         sufficiency of information and documentation of the facts by a designated
                         senior ICE supervisor.4 ROIs then go to the Director of OPR’s Investigations
                         Support Unit, which is responsible for overseeing the accuracy and routing of
                         completed investigations to the appropriate component directors. After this
                         review process, the Director of OPR reviews and approves the ROIs for
                         release to the appropriate ICE component Director for review and action. If
                         there is a question regarding the sufficiency of information or documentation
                         contained in an ROI, the case file is sent back to the investigating component
                         for additional information.

                         Even if the allegation has not been substantiated, the Director of OPR
                         forwards the ROI for review to the appropriate ICE component Director
                         because the employee’s conduct or action may still warrant non-disciplinary
                         remedies such as counseling or training, a verbal warning, a letter of caution,
                         or referral to an Employee Assistance Program.

                         Adjudicating Reports of Investigation

                         The case enters the adjudication stage once the ROI is forwarded to the
                         appropriate ICE component Director. The four main actors during
                         adjudication are the proposing official (usually the employee’s supervisor),
                         the deciding official (superior to the proposing official), ELR, and ICE’s
                         Office of the Principal Legal Advisor (OPLA).




4
 ROIs conducted by OPR are initially reviewed by one of three Regional Operations Managers who are Senior Special
Agents. The JIC OIG Desk Officer and ICE supervisor are responsible for providing the first level review for DHS OIG
ROIs.
                      A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                       Page 6

                           Upon receipt, the ICE component Director sends the ROI to the employee’s
                           supervisor or manager, who serves as the proposing official. He or she
                           reviews the ROI, determines whether misconduct has been substantiated, and
                           proposes a penalty. The deciding official then reviews the ROI, the proposed
                           penalty, and any written statement submitted or oral testimony provided by
                           the employee. The deciding official determines whether to sustain or reduce
                           the proposed penalty; he or she cannot increase the proposed penalty.

                           ELR provides advice to both officials when requested,5 and reviews the
                           proposal and decision letters to ensure technical and procedural compliance
                           before issuance to the employee. ELR also represents ICE in some third-party
                           hearings, such as arbitrations, and assists with Merit Systems Protection Board
                           (MSPB) cases, unfair labor practice cases, and grievance procedures.

                           OPLA provides legal advice throughout the process as requested, and
                           formally reviews all proposals concerning suspensions of 15 days or more,
                           which can be appealed to the MSPB. OPLA also represents the agency at all
                           MSPB hearings.


Results of Review
                           The lack of reliable tracking and processing procedures prevents ICE from
                           adequately documenting and monitoring completed investigations throughout
                           the adjudication phase. Inadequate management oversight diminishes ICE's
                           ability to ensure that disciplinary cases are adjudicated in a timely and
                           uniform manner. The degree of coordination between DHS OIG and ICE
                           OPR is insufficient, preventing timely information sharing on the adjudication
                           status of completed investigations.

                           Some of the management challenges we identify are similar to problems
                           identified in other reviews of ICE.6 ICE officials acknowledge the need to
                           resolve the deficiencies identified during the course of our review, but have
                           not completed the corrective actions.




5
  There is no policy that requires the proposing or deciding official to contact ELR or OPLA for advice when deciding
what action, if any, to take in a disciplinary case. Even when ELR is contacted for assistance, the proposing or deciding
official is not required to follow or consider ELR’s advice.
6
  Government Accountability Office, Department of Homeland Security, Addressing Management Challenges That Face
Immigration Enforcement Agencies, GAO-05-664T (May 5, 2005), which also identified questions surrounding ICE’s
strategic planning process, performance measures, and personnel accountability mechanisms.
                       A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                         Page 7

Improvements Are Needed in ICE’s Disciplinary Process
              ICE does not have a centralized tracking system for its disciplinary cases.
              ELR must query multiple databases and manually review paper records in
              order to respond to requests for information on case files, a process that is
              cumbersome and time consuming. There are other deficiencies that affect
              ICE’s ability to administer its disciplinary cases in a timely and uniform
              manner. 147 of the 246 ROIs we examined had unexplained delays in
              processing. In addition, ICE has five separate Tables of Offenses and
              Penalties for its employees, and no systematic process to ensure consistency in
              the application of proposed penalties.

              Effective Tracking and Processing of Cases Is Needed

              ELR headquarters and the two field offices use electronic spreadsheets to
              manage disciplinary cases. There is no requirement for uniform record
              keeping among the three offices. Current case management practices do not
              provide ELR with the ability to readily manage or identify the total number
              and status of cases in its disciplinary system. The current system is also
              cumbersome in that it fails to provide ELR with the ability to readily
              reconstruct case histories. For example, it took ELR headquarters more than
              two weeks to provide information on three cases discussed later in this report,
              and the information was incomplete.

              ELR officials use case management logs to manage disciplinary caseloads.
              Each ELR servicing office enters into its log the information it considers
              relevant. The information contained in the different logs cannot be easily
              transferred or consolidated among the two ELR servicing offices or
              headquarters, making it difficult to share and consolidate case data. Even
              when the case management logs were shared, the data is incompatible. Each
              office records information differently, except for a few common data
              elements, such as the employee’s name and component. The differences
              range from coding an allegation to the format used for entering dates. For
              example, one servicing office used four different offense codes to identify the
              misuse of a government issued credit card. This lack of standardization
              makes it difficult to compile and compare data across the organization for
              reporting and statistical purposes.

              Reliable information is critical to informed decision making and effective
              management oversight. However, some information contained in the records
              provided by ELR was inaccurate and incomplete. Out of 268 ROIs, we had to
              exclude 22 ROIs from our review because of concerns regarding the accuracy
              of the dates or names in the records. In 21 of those 22 ROIs, ELR case
           A Review of Immigration and Customs Enforcement Disciplinary Procedures


                                           Page 8
                           management logs indicated the ROIs were active earlier than OPR recorded
                           the ROIs as having been completed. In the 22nd case, OPR could not provide
                           a date the ROI was delivered to the component for adjudication. We also
                           question the reliability of data used to identify 26 of the remaining 246 ROIs
                           because of missing, inconsistent, or incomplete information.7

                           ELR officials said many of the errors in its case management logs are due to
                           data entry mistakes by staff. In some instances, an ELR servicing office was
                           not provided information by the component manager or there was inadequate
                           verification of the information before it was entered into the logs. ELR
                           officials also cited too few staff, too little training, and high turnover as
                           reasons for the errors.

                           OPR and ELR officials acknowledged they need a more reliable and efficient
                           case management system and are addressing the issue. OPR, in connection
                           with a broad redesign of its Case Management System,8 proposed
                           incorporating ELR disciplinary case adjudication functions into the new
                           system, known as the Joint Integrity Case Management System (JICMS),
                           which became operational in October 2005. ELR has been working with OPR
                           to define its system requirements, and as of early February 2006, ELR
                           headquarters personnel were given access to this system. ELR officials noted
                           that a full roll out of the system to all ELR personnel, including training, is
                           anticipated in the near future. The JICMS is intended to be an all-inclusive
                           system that will allow for the tracking and monitoring of ICE disciplinary
                           cases from initial investigation to final adjudication. If implemented
                           effectively, JICMS should address many of the shortfalls in ELR’s current
                           disciplinary Case Management System.9 However, we have concerns that
                           some issues will not be adequately addressed by ELR, such as (1) developing
                           common data collection and reporting standards, (2) effectively training ELR
                           personnel on the new system, and, (3) carrying over active case information to
                           JICMS. ELR officials acknowledged these issues, but did not provide a
                           definitive response on how they plan to resolve them.

                           Recommendations

                           Recommendation 1: We recommend that ICE implement a centralized and
                           automated case management system to enhance effective tracking, processing,

7
  See Appendix F, Total Reports of Investigation Statistics. 

8
  The Case Management System used by OPR is a legacy Customs system that is shared with CBP to track and manage 

its investigative caseload. This system is not used to track ICE disciplinary cases once they move into the adjudication 

stage, and cannot be accessed by ICE ELR. 

9
  This new system should also be managed and its access based on rules governing accepted personnel practices to 

ensure that the appropriate privacy safeguards are in place to protect sensitive employee information.

                       A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                          Page 9

                          and reporting on disciplinary cases from receipt of an allegation to
                          investigation through final adjudication.

                          Recommendation 2: We recommend that ICE standardize the methodology
                          used for recording and collecting disciplinary case information.

                          Recommendation 3: We recommend that ICE implement a training program
                          for all Employee and Labor Relations personnel on the Joint Integrity Case
                          Management System.

                          Recommendation 4: We recommend that ICE implement procedures to
                          ensure that active disciplinary case file information is transferred to the new
                          Joint Integrity Case Management System.

                          Completed Investigations Need to be Adjudicated in a Timely Manner

                          ICE managers do not ensure the timely processing of completed
                          investigations. Between January 2003 and August 2005, ICE experienced
                          excessive delays in initiating action on ROIs forwarded to component
                          Directors for review and disposition. For example, of the 246 ROIs we
                          tracked, we determined that 147 (60 %) had not been processed by the time of
                          our review.10 The table below depicts how long the 147 ROIs had gone
                          without being adjudicated as of September 30, 2005.

                                         Figure 1. Time Taken to Process 

                                              Reports of Investigation 

                                Length of Time                                  ROIs
                                0 to 2 months                                    24
                                3 to 4 months                                    24
                                5 to 6 months                                    16
                                7 months to 12 months                            21
                                1 year to 1.5 years                              24
                                1.5 years to 2 years                             16
                                2 years to 2.5 years                             15
                                Over 2.5 years                                    7
                                Total Records Tracked                            147
                              Source: DHS Office of Inspector General, ICE Office of Professional
                              Responsibility, and ICE Employee and Labor Relations records.




10
  We define an open case as a completed investigation that has been forwarded to the appropriate component Director
for review and action, but ELR has no record of action being taken on the case file.
                      A Review of Immigration and Customs Enforcement Disciplinary Procedures


                                                       Page 10
                           ICE officials involved in both the investigative and adjudicative processes
                           expressed concerns over the length of time it takes to adjudicate completed
                           investigations. They said that delays can occur for reasons outside
                           management’s control, such as when an accused employee requests additional
                           time to respond or when an adjudicator requests additional information.
                           However, even after considering such factors, we were not able to determine a
                           reasonable explanation for the excessive delays between the date an ICE
                           component receives a case file for disposition and when action is initiated to
                           adjudicate the case.

                           OPLA officials said that when months or years lapse before disciplinary
                           action is initiated on a case, the allegation of misconduct loses its urgency and
                           it becomes harder to justify a suspension of 14 days or more, removal, or
                           demotion. This is especially true in cases where the employee continues to
                           hold a position of public trust after a serious allegation is substantiated, and is
                           then issued a proposed removal after the case has languished for a year or
                           more.11 Some ICE officials blame OPR for the lack of timeliness in
                           completing investigations, while others point to ELR as the source of the
                           delay.12

                           To emphasize this point, both ELR and OPLA officials cited as an example a
                           case known as the “Phoenix Five,” which by some estimates has taken ICE
                           four to five years to adjudicate. Based upon the information provided by
                           ELR, the case involved five legacy INS employees and various allegations of
                           misconduct that occurred between January 2000 and November 2002. OPR
                           conducted an investigation and issued substantiated ROIs to the appropriate
                           component director in January 2004. However, the case was transferred from
                           the ICE field component to ICE headquarters for disciplinary action and
                           processing. Proposal letters were issued and then rescinded. The case file
                           was then returned to the component for a fresh review. Three of the five cases
                           were finally adjudicated in September 2005, one case is being appealed to the
                           MSPB, and one employee has filed an Equal Employment Opportunity
                           complaint. ICE officials did not provide a clear explanation as to why the
                           events unfolded in this manner.

                           We asked ELR officials to provide us with the information on the oldest case
                           in its system. The case, as described by ELR officials, involved a legacy INS
                           criminal investigator who was eventually charged with a lack of candor during

11
   Generally, an employee is not placed on administrative leave during the investigation or pending disciplinary action. 

However, there are circumstances when an employee can be placed on indefinite suspension usually related to the 

initiation of formal criminal charges. 

12
   In August 2004, we conducted an oversight inspection of OPR to assess the quality and completeness of its internal 

investigations. The report determined that OPR was completing internal investigations in a timely manner.

                       A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                         Page 11

                              the course of an investigation by the Department of Justice’s OIG in January
                              2002, for not having a positively adjudicated background investigation since
                              1988. As a result of the substantiated lack of candor charge, the employee
                              received a proposed removal in July 2003, but the proposal was later
                              rescinded because of the delay in adjudication. A new proposal for removal
                              was issued in October 2005, and as of August 1, 2006, the removal will be
                              upheld unless an appeal is filed with the MSPB.13

                              These examples, along with the 147 open ROIs, illustrate deficiencies in
                              ICE’s overall ability to adjudicate completed investigations timely. We asked
                              ICE officials whether it has performance goals and standards for processing
                              and adjudicating disciplinary cases. They responded that the processing of
                              cases is dictated by several factors, such as labor agreements, administrative
                              procedures, and policies that are based upon case law or federal regulations,
                              factors that exist generally for all federal agencies. In addition, ELR officials
                              said they are not aware of any government regulation that requires the
                              issuance of a decision letter in disciplinary cases within a specific time
                              frame.14 ELR officials also said ICE has informal internal goals that are used
                              to assist the process, but considers it disadvantageous to the organization to
                              establish formal timelines for rendering decisions. Even though no statutory
                              authority requiring federal agencies to adjudicate disciplinary cases within a
                              specific timeframe exists, we have concerns that currently there are no
                              policies and procedures in place either to compel ICE managers to assess
                              discipline expeditiously or to hold them accountable for their inaction.

                              The Government Performance and Results Act of 1993 requires federal
                              organizations to establish five-year strategic plans with clearly stated strategic
                              goals, corresponding annual plans to assess yearly progress toward attaining
                              those goals, and annual reports on progress. Although the Government
                              Performance and Results Act of 1993 addresses the major functions and
                              operations of federal organizations, the concept of measuring outcomes to
                              improve effectiveness applies to all programs and processes. Setting goals
                              and measuring performance assists federal organizations establish priorities,
                              control operations, document accomplishments, and motivates personnel to
                              improve performance.

                              ICE’s Interim Strategic Plan for 2005 outlines specific program goals,
                              objectives, and strategies for the organization. One strategic objective of the
                              plan requires the investigation of allegations of misconduct in a timely
                              manner. However, the plan does not include goals and measures pertaining to

13
     The employee’s duties have been restricted pending final adjudication.

14
     ELR’s assertion is consistent with standard employee relations practices on the issue. 

                          A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                            Page 12

                           the adjudication phase of the disciplinary process.15 This absence, coupled
                           with the need for broader organizational policies, inhibited ICE’s ability to
                           identify deficiencies within its disciplinary system and initiate improvements.

                           Recommendation

                           Recommendation 5: We recommend that ICE establish performance measures
                           and standards to ensure that completed investigations are adjudicated in a
                           timely manner.

                           Penalties Should Be Uniformly Applied

                           ICE’s current disciplinary process fails to ensure the uniform treatment of ICE
                           employees. Given similar circumstances, a uniform disciplinary system
                           should ensure that employees receive similar discipline for similar
                           misconduct. However, ICE management cannot determine whether
                           disciplinary actions are being applied in a consistent and uniform manner.

                           At the time of our review, ICE had five separate Tables of Offenses and
                           Penalties for its employees. Two of the tables are from the former INS and
                           USCS, one table is from FAMS,16 and one table is from the General Services
                           Administration, which covers the Federal Protective Service employees. In
                           April 2005, ICE implemented its own interim table for ICE non-bargaining
                           unit employees.17

                           The use of multiple tables facilitates inconsistent treatment of similar
                           employees for similar offenses. This risk is greatly increased because the
                           proposing official, who is generally the employee’s supervisor, decides which
                           Table of Offenses and Penalties should apply regarding an employee under
                           their supervision. Consequently, two similarly situated employees, that
                           commit similar misconduct under similar circumstances, within the same unit,
                           could receive different penalties.

                           The table below demonstrates the range afforded a first offense for
                           insubordination and misuse of position across the five applicable Tables of
                           Offenses and Penalties utilized by ICE.



15
   In February 2005, ICE submitted their Interim Strategic Performance Plan for DHS approval. 

16
   For the period covered by this review, FAMS was still a component of ICE. 

17
   ELR officials said all Tables of Offenses and Penalties apply a similar methodology in that they provide a range of

penalties for certain offenses and are designed to function as a “guide” to assist managers in determining appropriate 

discipline. 

                       A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                         Page 13

                        Figure 2. Comparison of ICE Five Tables of Penalties and Offenses
                              Component:                  1st Offense18:              1st Offense:
                                                        Insubordination            Misuse of Position
                          INS                         Reprimand to removal        15 days to removal

                          Customs                     5 days to removal           Reprimand to 10 days

                          FAMS                        14 days to removal          Reprimand to removal

                          General Services            Reprimand to removal        Suspension to
                          Administration                                          Removal
                          ICE (Interim)               5 days to removal           5 days to removal


                         Source: ICE Employee Labor Relations.

                          ELR officials said they review their individual case management logs to
                          ensure uniformity when advising proposing officials or deciding officials on
                          similar penalties for similar offenses. Each ELR servicing office uses a
                          combination of information from their individual case management logs and
                          its staff’s historical knowledge. However, because ELR offices do not have
                          the ability to access information from the others’ case management logs,
                          proposed penalties cannot be reviewed for uniformity of process across the
                          organization. Furthermore, proposing and deciding officials do not always
                          seek advice from ELR, so some cases are not reviewed by ELR for
                          uniformity.

                          ICE officials said efforts to implement an agency-wide Table of Offenses and
                          Penalties had been postponed to await the implementation of DHS’ new
                          personnel system, known as MaxHR. The MaxHR system will, if implemented,
                          permit the implementation of an organization wide Table of Offenses and
                          Penalties, without having any formal negotiations with the unions. Because a
                          federal district court ruled against DHS on portions of the new personnel
                          system, ICE officials have decided to move forward without the benefit of
                          MaxHR system flexibilities.19



18
   The descriptions of these first offenses are generalized because each tables use different language and 

characterizations to describe similar offenses. 

19
   DHS had intended to implement MaxHR performance management components on August 15, 2005. On August 7, 

2005, the Federal District Court ruled sections of MaxHR illegal. On September 9, 2005, DHS circulated an internal 

memorandum stating MaxHR performance-based pay components would be delayed up to one year. 

                       A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                       Page 14

             ICE officials said the agency is formulating a single Table of Offenses and
             Penalties that will apply to all employees and is preparing notification to its
             unions of ICE’s intention to include bargaining component employees under
             the new table.

             Recommendation

             Recommendation 6: We recommend that ICE implement a single Table of
             Offenses and Penalties that applies to all ICE employees.


Policies and Management Oversight Are Needed
             ICE does not have a policy that requires its operational divisions to coordinate
             their efforts with ELR in adjudicating completed investigations. There is also
             a lack of oversight of officials involved in the disciplinary process.
             Collectively, these conditions prevent objective enforcement of rules and
             regulations and compromise the integrity of ICE’s disciplinary process.

             Improved Policies Are Needed to Enhance Coordination

             When an investigation is completed, OPR’s Director hand delivers the
             investigative case file to the appropriate component director for review and
             action. However, neither OPR nor ICE component Directors consistently
             provide notification to ELR when a completed investigation has been
             submitted for adjudication. Even when ELR officials are made aware that a
             component has received a completed investigation for adjudication, it is ELR
             policy to wait for the component to contact them for assistance, instead of
             proactively reaching out to offer their services. ELR officials said that severe
             budget and staff shortfalls have hampered its efforts to address this issue, and
             additional staff would be required to facilitate outreach efforts to the
             components.

             More importantly, ELR officials said component managers are not required to
             contact ELR for assistance when they receive a case file for action, and are
             not required to follow or consider ELR’s advice. Of the 246 completed ROIs
             we reviewed, only 71 had been adjudicated to completion. Of those 71
             adjudicated disciplinary cases, 9 were not on ELR’s case management logs,
             which indicates that ELR was not involved in the decision making process
             concerning their adjudication.

             Out of the 246 completed investigations, 28 completed investigations had no
             disciplinary action taken by the component because the alleged misconduct
          A Review of Immigration and Customs Enforcement Disciplinary Procedures


                                         Page 15
                          was unsubstantiated by the OPR investigation. We have concerns regarding
                          26 of those 28 completed investigations, because the investigations were
                          closed by the component without contacting ELR for advice or assistance.20
                          Because all completed investigations are forwarded by OPR to the appropriate
                          component for review whether or not the allegation of misconduct has been
                          substantiated,21 it is imperative ELR be involved in all aspects of the
                          disciplinary process to ensure the uniform application of discipline. This is
                          particularly important when dealing with unusual or complex cases, such as
                          those involving multiple findings of misconduct, more than one employee, or
                          multiple tables of offenses. An ELR official said ICE would be issuing a
                          directive to provide agency wide guidance on its adverse action process, and
                          that this directive would provide guidance on the roles and responsibilities of
                          those involved in the disciplinary process. The official did not provide a
                          timeframe when the directive would be issued.

                          Recommendations

                          Recommendation 7: We recommend that ICE require its Office of
                          Professional Responsibility to notify Employee and Labor Relations when
                          completed Reports of Investigations have been transmitted to ICE components
                          for adjudication.

                          Recommendation 8: We recommend that ICE implement policies to ensure
                          all ICE components coordinate with Employee and Labor Relations in the
                          adjudication of all completed investigations.

                          ICE informed us that it is working to improve coordination, consultation, and
                          communication between its operational divisions. ICE officials noted the
                          establishment of the ICE Policy Action Committee, an internal policy
                          development forum. The committee is responsible for identifying gaps in ICE
                          policy and selecting best practices from among the policies formerly used at
                          legacy agencies to be incorporated into ICE policies.

                          Current Decision Making Process Requires More Management Oversight

                          In explaining the mechanics of the ICE disciplinary process, various ICE
                          officials told us that deciding officials may take whatever disciplinary or



20
  See Appendix F, Total Reports of Investigation Statistics. 

21
  The case file is forwarded by OPR to the appropriate component for review even when the alleged misconduct has not

been substantiated because the facts of the investigation may suggest the employee’s conduct warrants corrective 

measures or non-disciplinary remedies. 

                      A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                       Page 16

                          adverse action they deem appropriate,22 including no action, without any
                          management oversight.23 One ELR official stated that there was definitely a
                          lack of uniformity within the system, resulting in the perception that a “good
                          old boys” network still existed where certain infractions were simply made to
                          go away. For example, OPR officials noted a recent case that it investigated
                          involving a Senior Executive Service employee. The employee had several
                          serious charges of substantiated misconduct that were referred to the
                          appropriate component director for discipline. The initial decision to impose a
                          three-day suspension was rescinded, and a letter of reprimand was imposed,
                          which is under appeal.24 OPR officials we interviewed expressed surprise at
                          the lenient penalty, considering the serious nature of the misconduct and the
                          employee’s seniority and position, and thought the misconduct warranted a
                          stronger penalty than was imposed. Another official familiar with the case
                          stated that the component responsible for disciplining the employee is widely
                          known for being too lenient. OPR officials said this case is an example of
                          why better management oversight of the current decision-making process is
                          needed.

                          The current disciplinary process also raises serious concerns about the
                          possibility for inconsistent treatment of employees, especially in cases where
                          the maximum punishment is a suspension of less than 14 days, as these cases
                          are handled exclusively at the component level.25 Without transparency and
                          accountability in the disciplinary process, disciplinary actions can be assessed
                          and imposed differently depending upon grade, position, or office. The
                          problem is compounded by the fact that ELR has no defined oversight
                          authority in the adjudication process, and that ICE has yet to address
                          unresolved legacy INS issues regarding the lack of accountability standards
                          for ICE employees.26



22
   Supervisors are to consider twelve factors commonly referred to as the “Douglas Factors.” See Douglas v. Veterans
Administration, 5 Merit Systems Protection Board Reporter 280, which established criteria that supervisors should
consider in determining an appropriate penalty to impose for an act of employee misconduct.
23
   In an October 2001, statement before House Judiciary Committee Subcommittee on Immigration and Claims, the
Department of Justice Inspector General was critical of INS saying, “INS has not sufficiently demanded accountability
either of individual INS employees or from the organization as a whole.” The Inspector General also said, “Discipline
for INS employees who have committed misconduct has been spotty and uneven.”
24
   According to Office of Personnel Management regulations, an agency may suspend a Senior Executive Service
employee for 14 days or more, but the regulation is silent on suspensions of 14 days or less, so there are no provisions
for such suspensions. An agency may issue a reprimand or admonishment for offenses that do not warrant a suspension
for more than 14 days.
25
   Under federal regulations in 5 CFR 752 Parts C and D, an employee has the right to appeal a suspension of more than
14 days, a reduction in grade or pay, a removal to the MSPB or alternatively arbitration. The MSPB appeal or arbitration
provides a level of review in the discipline process that a disciplinary action 14-days or less is not afforded.
26
   See footnote 23, detailing Department of Justice OIG comments on INS accountability and discipline issues.
                       A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                        Page 17

                           In June 2005, OPR prepared an internal memorandum proposing that ICE
                           explore other alternatives, such as the establishment of a Disciplinary Review
                           Board, to promote fairness and consistency in addressing cases of alleged
                           employee misconduct. Input was solicited from ICE components to assist in
                           the evaluation of different options regarding the implementation of a
                           centralized disciplinary system.

                           In August 2005, ICE officials elected to implement a new disciplinary system
                           similar to a Disciplinary Review Board. Under the new system, disciplinary
                           responsibilities would be transferred from the individual ICE component
                           where the assessment of the penalty is usually made by the employee’s
                           supervisors. Instead, disciplinary responsibilities would rest with a new
                           central disciplinary entity at ICE headquarters that would review reports of
                           misconduct and propose disciplinary or adverse actions as appropriate. The
                           new entity would apply uniform standards of conduct to all ICE employees
                           regardless of their grade, position, or office. As described in the internal
                           memorandum, the disciplinary process would be a two-tier system consisting
                           of a proposing panel and a decision board. The proposing panel would
                           consider and issue proposed actions, as well as determine whether lesser
                           actions, e.g., reprimands and counselings, should be returned to the
                           component manager or ELR for action. The decision board would have the
                           responsibility of reviewing all relevant documents, including employee
                           responses, and issuing final decisions. ICE officials said they are in the final
                           stages of determining staffing requirements and the system should be
                           operational by mid 2006.27

                           Implementing the new system should provide ICE with a better opportunity to
                           establish a single, integrated disciplinary process that is timely and uniform.
                           However, we have concerns with how ICE will address current disciplinary
                           cases during the transition period. ICE said directives would be issued, but
                           these directives were not available during our review and no timeframe was
                           provided for when the directives would be implemented.

                           Recommendation

                           Recommendation 9: We recommend that ICE implement policies for
                           processing existing disciplinary cases during the transition to the new
                           centralized disciplinary system.


27
  ICE recently began recruiting candidates to the proposing panel and decision board through its pilot Management
Development Program. The program is open to all Non-Bargaining Unit GS-14 and GS-15 level employees who are
interested in career development training that focuses on core competency skills related to Senior Executive Service
level positions. The panel and board will be located at ICE headquarters and positions initially will be held for one year.
                        A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                          Page 18

Coordination Issues Are Affecting Investigation Information Sharing
                          We identified two issues that affect information sharing and hamper DHS
                          OIG efforts to obtain timely and accurate information on the disciplinary
                          status of their ROIs: ineffective ICE procedures for reporting back to OIG and
                          unclear guidance on reporting requirements. More focused attention on these
                          issues is needed by ICE to ensure an appropriate resolution.

                          The Investigative Reporting Process and Requirements Need to be Clarified

                          In September 2004, the DHS Inspector General sent a memorandum to the
                          Under Secretary for BTS requesting an update on the status of its ROIs. The
                          memorandum informed BTS that DHS OIG had not received, as requested, a
                          response within 30 days on the status of its ROIs, some of which dated back to
                          2003.28 The Under Secretary did not reply to the memorandum. We asked an
                          OPR official why the Under Secretary did not reply and were provided a copy
                          of an October 13, 2004, memorandum from ICE’s Assistant Secretary to the
                          Under Secretary that addressed the Inspector General’s concerns.29 The
                          official could not explain why the memorandum was never transmitted to the
                          Inspector General.

                          DHS OIG routinely attaches a transmittal letter to substantiated ROIs that
                          requests a status on the case file within 30 days. OPR passes the ROI and
                          reporting requirement on to the appropriate component director for action. An
                          OPR official told us that OPR acts only as the postman to deliver ROIs to the
                          appropriate component director, and the component is responsible for
                          reporting directly back to DHS OIG on the disposition of the completed
                          investigation, specifically what disciplinary action, if any, was taken. The
                          OPR official stressed that it is in the same position as DHS OIG because ICE
                          components are also not reporting back to OPR on the status of its ROIs, and
                          OPR does not have the authority to mandate that ICE components report back
                          to either entity.

                          Also, ICE is not providing the disciplinary status on DHS OIG ROIs in its
                          monthly status report.30 We were told ICE is only required to report on all


28
   See Appendix G, DHS Inspector General letter dated September 30, 2004.
29
   See Appendix H, ICE’s Assistant Secretary for Immigration and Customs Enforcement Letter dated October 13, 2004.
30
   In March 2003, BTS and DHS OIG signed a MOU, providing the authority for DHS OIG to investigate allegations of
misconduct involving BTS employees. In June 2004, DHS issued Management Directive 0810.1 that provided DHS
OIG with the authority to review all allegations of BTS employee misconduct to determine whether DHS OIG would
conduct the investigation. Both the memorandum and the directive require ICE to provide monthly status reports on all
                      A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                       Page 19

                            open investigations, and OPR defines DHS OIG investigations as closed once
                            the ROI is completed and forwarded by OPR to the responsible component for
                            action.31 However, DHS OIG does not consider its ROIs closed until the
                            completed investigation has been adjudicated. The current process is not
                            working and both entities have fundamentally different understandings of
                            what information is to be reported.32 This lack of coordination demonstrates
                            the need for clearly defined policies and procedures for all entities involved in
                            the disciplinary process.

                            Recommendations

                            Recommendation 10: We recommend that ICE provide DHS Office of
                            Inspector General with a monthly report on the disciplinary status of all
                            Reports of Investigation.

                            Improvements Are Needed to Track the Distribution of DHS OIG
                            Investigations

                            We reviewed an initial list of 184 ROIs from DHS OIG to determine how OIG
                            investigations are processed and when those investigations are delivered to the
                            component directors for action.

                            When the JIC receives an ROI from DHS OIG, a document called a “blue
                            sheet” and a letter of transmittal are attached to the ROI for internal routing to
                            the Director of OPR. Once the Director reviews and approves the ROI for
                            release, the blue sheet is returned to the JIC for filing. At some point
                            thereafter, OPR’s Director delivers the ROI with a signed transmittal letter to
                            the appropriate component director for action.

                            According to OPR officials, DHS OIG ROIs are not tracked in its Case
                            Management System.33 Other than the blue sheet, there is no system in place
                            to determine when the ROI was received by OPR or when it was delivered to
                            a component director for action. For the 184 OIG ROIs we reviewed, the
                            majority of transmittal letters did not have dates and many of the blue sheets


open investigations. However, neither specifically requires reporting on the disciplinary status of DHS OIG
investigations. See Appendices D and E for further information.
31
   OPR defines a continuing or ongoing investigation as open.
32
   OPR officials said on numerous occasions they discussed these issues with DHS OIG, but have not reached a
resolution.
33
   A DHS OIG ROI is classified as closed in the Case Management System after it is received into the JIC. The ROI
receives a first level review at the JIC and is forwarded with a generic transmittal letter for the signature of OPR’s
Director when the case file is approved for release. A blue sheet is attached to the case file for internal routing to the
OPR Director.
                        A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                           Page 20

                         were missing. Without this information, OPR had no way of tracking whether
                         the ROIs were received by the JIC, or delivered to the components for
                         processing. Under the current system, ROIs could be lost or misplaced
                         without OPR’s or OIG’s knowledge. For example, OPR said they never
                         received six DHS OIG case files.34 We could not determine whether the ROIs
                         were never received by the JIC, or they were lost in OPR’s internal routing
                         process.

                         Recommendation

                         Recommendation 11: We recommend that ICE track the receipt and
                         distribution of DHS Office of Inspector General Reports of Investigation.


        Management Comments and OIG Analysis
                         We issued our draft report to ICE on May 2, 2006, and met with ICE officials
                         on May 31, 2006, to discuss the report. ICE provided its written response on
                         June 6, 2006, in which it concurred with the report’s information, findings,
                         and recommendations. ICE is taking actions to resolve most of the
                         deficiencies noted in our report. We consider five recommendations resolved
                         and closed. Four recommendations remain resolved and open, and two
                         remain unresolved and open.

                         Following is our analysis of ICE’s response to our draft report.

                         Recommendation 1; We recommend that ICE implement a centralized and
                         automated case management system to enhance effective tracking, processing,
                         and reporting on disciplinary cases from receipt of an allegation to
                         investigation through final adjudication.

                         ICE Response: ICE agrees with the recommendation. On October 6, 2006,
                         ICE’s Office of Professional Responsibility (OPR) launched the Joint
                         Integrity Case Management System (JICMS). This system improves
                         management of ICE discipline cases.

                         OIG Evaluation: This recommendation is resolved and closed.

                         Recommendation 2: We recommend that ICE standardize the methodology
                         used for recording and collecting disciplinary case information.

34
 There were three ROIs containing two subjects each. As a result of our findings, we informed DHS OIG that these
ROIs should be reissued.
                      A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                      Page 21

   ICE Response: ICE agrees with the recommendation. In developing JICMS,
   OPR worked with ICE Employee and Labor Relations (E&LR) personnel and
   CBP labor employee relations specialists to determine the scope and type of
   data collection protocols needed to record, manage, and track ICE discipline
   cases.

   OIG Analysis: This recommendation is resolved and closed.

   Recommendation 3: We recommend that ICE implement a training program
   for all Employee and Labor Relations personnel on the Joint Integrity Case
   Management System.

   ICE Response: ICE agrees with the recommendation. ICE recently 

   completed one-on-one training of all ELR personnel who manage and 

   adjudicate employee disciplinary matters. 


   OIG Analysis: This recommendation is resolved and closed.

   Recommendation 4: We recommend that ICE implement procedures to
   ensure that active disciplinary case file information is transferred to the new
   Joint Integrity Case Management System.

   ICE Response: ICE responded that the recommendation appears to be the
   same as recommendation 9, to which a response has been provided.

   OIG Analysis: ICE has misinterpreted the intent our recommendation. The
   intent of recommendation 4 is to ensure that active and historical disciplinary
   case file information is not lost during the transition period to the new Joint
   Integrity Case Management System (JICMS). Recommendation 9 focuses on
   the need for transparency and consistency in the current decision making
   process. We highlighted in the report the difficulty ELR had in reconstructing
   details of discipline cases, and have concerns this issue has not been
   adequately address by implementation of JICMS. Recommendation 4 is
   unresolved and open.

   Recommendation 5: We recommend that ICE establish performance 

   measures and standards to ensure that completed investigations are 

   adjudicated in a timely manner. 


   ICE Response: ICE agrees with the recommendation. ICE ELR is
   addressing this issue through the MaxHR ePerformance system that includes
   goal requirements based on measurable data and competencies. ICE’s Chief
A Review of Immigration and Customs Enforcement Disciplinary Procedures


                               Page 22
   Human Capital Officer is working with DHS to realign all non-bargaining unit
   employees into DHS’ ePerformance system by October 1, 2006. This would
   ensure that MaxHR supervisors, managers, and employees would all be held
   accountable for their respective responsibilities in the discipline process. In
   the interim, ICE programs have been directed to include performance
   standards for managers in their appraisals to emphasize individual
   accountability for the timely adjudication of discipline cases.

   OIG Analysis: ICE is currently in the process of addressing the issue of
   measurable performance standards for employees involved in the discipline
   process. This recommendation is resolved but remains open.

   Recommendation 6: We recommend that ICE implement a single Table of
   Offenses and Penalties that applies to all ICE employees.

   ICE Response: ICE agrees with the recommendation. Compliance is
   underway, in that the agency-wide Table of Offenses and Penalties (TOP) has
   been finalized and forwarded to the respective unions for review and
   comment. ICE is required to wait for the unions to submit comments and
   requests for negotiations, and complete any related dispute resolution before
   the agency-wide TOP can be implemented.

   OIG Analysis: ICE is currently in the process of implementing an agency-
   wide Table of Offenses and Penalties. This recommendation is resolved and
   open.

   Recommendation 7: We recommend that the Office of Professional
   Responsibility notify Employee and Labor Relations when completed Reports
   of Investigations have been transmitted to the ICE components for
   adjudication.

   ICE Response: ICE agrees with the recommendation. With the
   implementation of the Joint Integrity Case Management System (JICMS),
   ELR can directly confirm the real-time status of all administrative cases.
   Additionally, the Office of Professional Responsibility provides ELR with a
   hard copy of the final Report of Investigation (Redbook), when it is provided
   to the ICE directorate for adjudication.

   OIG Analysis: ICE did not provide any specificity on actions taken or
   planned to ensure ELR also receives notification of DHS’ Reports of
   Investigation (Blackbooks). This recommendation is resolved and open.


A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 23

   Recommendation 8: We recommend that ICE implement policies to ensure
   all ICE components coordinate with Employee and Labor Relations in the
   adjudication of all completed investigations.

   ICE Response: ICE agrees, and is in the process of implementing a
   Discipline and Adverse Action Process (DAAP) that will institute one uniform
   and consistent discipline system for its employees. The DAAP places
   responsibility for all disciplinary actions, except reprimands and counseling
   with the DAAP panel instead of field managers. The DAAP panel will review
   all investigations and make decisions regarding proposed penalties and
   charges. Designated officials will make final decisions on such actions after
   hearing employee replies, and reviewing the facts and aggravating and
   mitigating factors. E&LR and ICE’s Office of the Principal Legal Advisor
   (OPLA), will review discipline cases for legal and administrative sufficiency.

   OIG Analysis: ICE is currently in the process of adopting a new discipline
   system that has not been fully implemented. This recommendation is resolved
   and open.

   Recommendation 9: We recommend that ICE implement policies for 

   processing existing disciplinary cases during the transition to the new 

   centralized disciplinary system. 


   ICE Response: ICE responded that policies, procedures, and implementation
   guidelines have been written and reviewed in conjunction with
   implementation of its Discipline and Adverse Action Process (DAAP) panel.

   OIG Analysis: ICE did not provide any specificity on actions taken or
   planned that we consider responsive to the intent of the recommendation. We
   intended to highlight the absence of any specific discussions by ICE officials
   as to how the agency plans to ensure transparency and consistency of process
   in the decision making process for existing discipline cases until the DAAP is
   implemented. This recommendation remains unresolved and open.

   Recommendation 10: We recommend that ICE provide DHS Office of 

   Inspector General with a monthly report on the disciplinary status of all 

   Reports of Investigation. 


   ICE Response: ICE has provided the DHS OIG full access to JICMS, which
   provides us with the capability to view investigations and adjudications as
   they progress and generate current reports from the system. ICE has also
   provided our investigative staff with JICMS training.

A Review of Immigration and Customs Enforcement Disciplinary Procedures


                               Page 24
   OIG Analysis: This recommendation is resolved and closed.

   Recommendation 11: We recommend that ICE track the receipt and
   distribution of DHS Office of Inspector General Reports of Investigation.

   ICE Response: ICE agrees with the recommendation. ICE Office of
   Professional responsibility has established a tracking database into existing
   protocols to improve tracking of DHS OIG investigations. ICE in its response
   requested DHS OIG provide OPR with one bound copy full copy of each
   report and also one copy without evidentiary materials in electronic portable
   document format.

   OIG Analysis: We concur with the actions and initiatives taken. We will
   forward ICE’s request regarding delivery protocols for DHS OIG
   investigations to the Assistant Inspector General for Investigations for review
   and appropriate action. This recommendation is resolved and closed.




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 25

               Appendix A
               Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
               The purpose of our review was to determine whether completed OIG and ICE
               investigations involving employee disciplinary actions were being processed
               in a uniform and timely manner. We focused on the current procedures to
               establish a single, integrated disciplinary process for employees.

               We reviewed the status of ROIs performed between January 2003 and August
               2005 and analyzed case management logs provided by DHS OIG, OPR, ELR
               headquarters, and ELR servicing offices in Texas and California.

               We interviewed officials from the various ICE components, as well as DHS
               OIG. The majority of our fieldwork was performed in Washington, DC.

               We also reviewed ICE policies, memoranda, and organization charts. These
               included a white paper on the Discipline Review Process, Customs, INS,
               FAMS, and ICE interim Tables of Offenses and Penalties, internal
               memoranda on the Discipline Review Process, Discipline and Adverse Action
               Procedures, and documentation on ICE budget and staffing.

               Our fieldwork was performed between August 2005 and September 2005.
               This review was conducted under the authority of the Inspector General Act of
               1978, as amended, and according to the Quality Standards for Inspections
               issued by the President’s Council on Integrity and Efficiency.




            A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                            Page 26 

   Appendix B
   Management Response to Draft




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 27 

   Appendix B
   Management Response to Draft




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 28

   Appendix B
   Management Response to Draft




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 29

   Appendix B
   Management Response to Draft




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 30

   Appendix B
   Management Response to Draft




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 31

                                      Appendix C
                                      ICE Organization Chart




                                    Chief of Staff                                        Policy & Planning



                                      Principal                                             Office of
                                                         Assistant Secretary                Resource
                                    Legal Advisor
                                                                                           Management


                                      Office of                                              Director
                                    Professional                                                Of
                                    Responsibility                                          Operations




                                                               Detention and                                                         Office of
Federal Protective                Federal Air                                                Office of
                                                                 Removal                                                           Intelligence
     Service                    Marshal Service                                           Investigations
                                                                Operations



                                                                                                         International Affairs



                                 Special Agents in                Field Office          Special Agents in                           Field Unit
 Regional Directors                  Charge                        Directors                Charge                                  Directors


  Facility Security                                                                     Resident Agents in                       Resident Agents in
                                  Field Offices                 Removal Unit                 Charge                                   Charge
    Managers

 Security Officers                Air Marshals                 Removal Officers         Resident Agents                          Resident Agents




       Operational/Core Elements
                                      35




         35
              FAMS was removed from ICE as of October 16, 2005, and is now part of the Transportation Security Administration

                                  A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                                    Page 32 

   Appendix D
   DHS Management Directive 0810.1 Appendix A




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 33 

   Appendix D
   DHS Management Directive 0810.1 Appendix A




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 34

   Appendix E
   DHS and BTS Memorandum of Understanding




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 35 

   Appendix E
   DHS and BTS Memorandum of Understanding




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 36

                               Appendix F
                               Total Reports of Investigation Statistics


                                   Total Reports of Investigation Statistics 

                                        January 2003 – August 2005

                 TOTAL REPORTS OF INVESTIGATION (DHS OIG and OPR)
  Total Reports of Investigation                                                                   385
  Minus Records Out of Scope36                                                                     -117
  Records Sent to ELR for Status Review                                                            268
                              37                                                                    -22
  Minus Records with Errors
  TOTAL RECORDS                                                                                    246
  Source: DHS Office of Inspector General and ICE Office of Professional Responsibility investigation records.

       STATUS                      Reports of On ELR Log                            Not on ELR                   Questionable
                                  Investigation                                         Log                      Data Provided
Records Open38                            147                       0                      147
Records Action                            71                       62                       9               23 records had missing or
                                                                                                            incomplete information.
Pending, Proposed, or                                                                                       2 other records were logged by
Taken                                                                                                       ELR with multiple active entry
                                                                                                            dates.
Records No Action                          28                       2                       26              3 records had missing or
                                                                                                            incomplete information.
Taken - No
Independent
Oversight39
Total Records                             246                      64                      182
  Source: DHS Office of Inspector General, ICE Office of Professional Responsibility, and ICE Employee and Labor Relations
  Records.

  36
     The 117 records excluded were: 23 records were removed because they were outside our scope (2002), 21 records
  were removed because the subjects were unknown, 20 civilian records, 16 resigned/retired, 11 non-ICE employees, 8
  records OPR said they never received from OIG Investigations, 7 duplicate or inconsistent/unidentifiable names or case
  numbers, 6 Non-ICE Employees, 4 duplicate or subject unknown records (irreconcilable), and 1 case was referred back
  to OIG for processing.
  37
     We excluded from our review 21 records because of inconsistent or missing dates between OPR and ELR records, and
  1 record because of a duplicate or inconsistent/unidentifiable name.
  38
     We define an “open” case as a completed investigation that has been forwarded to the appropriate component director
  for review and action, but where no visible action has been documented to date.
  39
     We define a record with no action taken and no independent oversight as a completed investigation that has been
  forwarded to the appropriate component director for review and action, but was closed without action and without any
  independent oversight from ELR or OPLA.




                           A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                                                Page 37 

   Appendix G
   DHS Inspector General Letter Concerning
   Delinquent Replies




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 38 

   Appendix H
   ICE’s Assistant Secretary for Immigration and
   Customs Enforcement Letter




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 39 

   Appendix H
   ICE’s Assistant Secretary for Immigration and
   Customs Enforcement Letter




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 40 

   Appendix H
   ICE’s Assistant Secretary for Immigration and
   Customs Enforcement Letter




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 41 

   Appendix H
   ICE’s Assistant Secretary for Immigration and
   Customs Enforcement Letter




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 42 

   Appendix I
   Major Contributors


   Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
   Office of Inspections and Special Reviews

   Douglas Ellice, Chief Inspector, Department of Homeland Security,
   Office of Inspections and Special Reviews

   Carolyn Aya Johnson, Inspector, Department of Homeland Security, Office of
   Inspections and Special Reviews

   Ryan Carr, Inspector, Department of Homeland Security, Office of
   Inspections and Special Reviews




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 43 

   Appendix J
   Report Distribution


   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Chief Privacy Officer
   Assistant Secretary for Policy
   DHS GAO OIG Audit Liaison
   Assistant Secretary for Public Affairs
   Assistant Secretary for Legislative and Intergovernmental Affairs
   Assistant Secretary, Immigration and Customs Enforcement
   Immigration and Customs Enforcement, Audit Liaison
   Commissioner, Customs and Border Protection
   Customs and Border Protection, Audit Liaison


   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS Program Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




A Review of Immigration and Customs Enforcement Disciplinary Procedures



                                Page 44 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at (202)
254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or
noncriminal misconduct relative to department programs or operations, call the OIG Hotline
at 1-800-323-8603; write to Department of Homeland Security, Washington, DC 20528,
Attn: Office of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
